HHS/OIG-Audit--"Review of Medicare Payments for Institutionalized Beneficiaries Made to Medica Health Maintenance Organization in Minneapolis, Minnesota, (A-05-94-00053)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments for Institutionalized Beneficiaries Made
to Medica Health Maintenance Organization in Minneapolis, Minnesota," (A-05-94-00053)
May 30, 1995
Complete Text of Report is available in PDF format
(1.4 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This audit is one of a series of reviews the Office of Inspector General is
conducting under our "Strategic Plan for the Oversight of Managed Care".
The findings from this review may result in a special managed care fraud alert.
The final report points out that Medica, a health maintenance organization,
received improper payments under its Medicare risk-based contract on behalf
of beneficiaries who were improperly classified as institutionalized. We estimate
the improper payments totaled at least $861,615 over a 5 year period. In addition
to a financial adjustment, we recommended that Medica establish more prescriptive
policies and procedures for monitoring and reporting their beneficiaries' institutional
status. Medica officials generally agreed with our findings and recommendations.